   U.S. DEPARTMENT OF LABOR
      Office of Inspector General



              Audit of
  Center for Employment Training

Migrant and Seasonal Farmworker Program
    (Grant Number C-5439-5-00-81-55)

        Welfare-to-Work Program
    (Grant Number Y-6802-8-00-81-60)

           Replication Project
    (Grant Number J-3912-2-00-81-75)




                 U.S. Department of Labor
                 Office of Inspector General
                 Report No. 09-00-006-03-365
                 Date:      SEP 26 2000
                              TABLE OF CONTENTS


EXECUTIVE SUMMARY                                                                   1

INTRODUCTION                                                                        6

OBJECTIVES, SCOPE, AND METHODOLOGY                                                  8

ASSISTANT INSPECTOR GENERAL’S REPORT                                               10

FINDINGS AND RECOMMENDATIONS                                                       13

   1. Administration Costs of $3,854,640 are Misstated                             13

   2. The CET Did Not Credit the MSFW Program with Pell Grant Proceeds             17

   3. The Replication Project was Overcharged $383,894 and $3,728,512
      was Misclassified                                                            19

   4. The PY 1998 MSFW Training Category is Overstated $291,708                    23

   5. Other Ineligible Costs of $187,621 Were Charged to the MSFW Program          27

   6. Participant Files Did Not Include Sufficient Documentation to Substantiate
      Eligibility                                                                  31

   7. The CET Did Not Submit Indirect Cost Proposals Timely                        34

EXHIBIT A -- Statement of Audited Costs (Financial Status Report) PY 1998          37

EXHIBIT B -- Performance Data (Program Status Summary) PY 1998                     38

EXHIBIT C -- Statement of Audited Costs (Financial Status Report) PY 1998          39

EXHIBIT D -- Performance Data (Financial Status Report) PY 1998                    40

EXHIBIT E -- Statement of Audited Costs (Grantee’s Detailed Statement of Costs)
               PY 1998                                                             41

APPENDIX -- Center For Employment Training Response
                     ACRONYMS




CET    Center for Employment Training

CFR    Code of Federal Regulations

DOL    Department of Labor

ETA    Employment and Training Administration

FY     Fiscal Year

JTPA   Job Training Partnership Act

MSFW      Migrant and Seasonal Farmworker

OIG    Office of Inspector General

OMB    Office of Management and Budget

PY     Program Year

TANF   Temporary Assistance for Needy Families

WtW    Welfare-to-Work
                               EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), audited the Center
for Employment Training (CET). The scope of the audit covered the CET’s administration of
the following three Employment and Training Administration (ETA) grants in effect during
Program Year (PY) 1998:

       ! Grant Number Y-6802-8-00-81-60: Welfare-to-Work (WtW) Program;
       ! Grant Number J-3912-2-00-81-75: Replication Project; and
       ! Grant Number C-5439-5-00-81-55: Migrant and Seasonal Farmworker (MSFW)
         Program.

The audit included the CET's costs as reported to ETA on the applicable MSFW and WtW
Financial Status Reports (Exhibits A and C) and the Replication Project's Grantee's Detailed
Statement of Costs (Exhibit E). When we identified problems for PY 1998, we expanded our
examination of those problems areas to earlier program years.

Overall, we concluded that the CET is meeting the program objectives of the grants audited.
For the MSFW and WtW grants that directly served participants, the CET met the grant
objectives regarding the entered employment rate and the average hourly wage at termination
(Exhibits B and D). The CET’s participant files and the information included in its participant
data systems generally supported program outcome statistics reported to ETA. Generally,
the CET made proper participant eligibility determinations in accordance with Federal
regulations and the CET policies, although documentation of program eligibility needed
improvement.

However, we concluded that the financial systems used to report costs to ETA need
significant improvements to accurately reflect allowable costs in accordance with grant
provisions, Federal regulations and OMB Circular A-122. CET's internal controls and
financial reporting procedures were not adequate to ensure grant costs reported were
accurate and allowable under governing regulations. As a result, the CET's Financial Status
Reports for the MSFW program and the Grantee's Detailed Statement of Costs for the
Replication project did not accurately reflect allowable costs. We are questioning costs
totaling $5,797,229 of which $1,578,314 is related to PY 1998. The table below shows the
$1,578,314 PY 1998 questioned costs by grant.




                                              1
                     ETA Programs                            PY 1998
                   Administered by CET

                                                       Reported    Questioned
                                                       Expenses      Costs

                 MSFW Program                      $10,776,893     $ 1,459,046

                 WtW Program                       $ 2,029,452      $        0

                 Replication Project               $     598,926   $    119,268

                 Total                             $13,405,271     $ 1,578,314


Moreover, DOL grant costs totaling $3,728,512 were misclassified on the Replication Project
Grantee's Statement of Detailed Costs.

The preceding table and the exhibits to this report reflect grant costs the CET reported to
ETA. The CET uses a method to draw down cash from ETA which differs from its expense
reporting and the amount of cash drawn from ETA generally does not match reported
expenses. For PY 1998, the CET reported expenses of $10,776,893 for the MSFW program
but only drew $10,182,354. For the WtW program, the CET reported expenses of $2,029,452
but drew down $2,303,146. Since ETA uses the Financial Status Reports to monitor grant
expenses, including compliance with budget restrictions, the reported expenses from the
Financial Status Reports are used in this report.

The following summarizes our audit findings:

! Administration Costs are Overstated $3,854,640

   The CET overstated administration costs by a total of $3,854,640 on the PY 1996,
   PY 1997, and PY 1998 Financial Status Reports for the MSFW program. The CET
   charged administration costs already included in their published tuition catalog rates and
   inaccurately reported other administration costs. As such, the related Financial Status
   Reports are materially misstated.

! The MSFW Program Did Not Credit the MSFW Program With Pell Grant Proceeds

   According to a U.S. Department of Education (DOE) program review report, the MSFW
   program was overcharged $1,437,035 in PYs 1993, 1994, and 1995. The DOE concluded
   that this occurred because the CET did not credit the MSFW program with DOE Pell
   grant funds. Although the CET disagreed with the DOE conclusion, the Federal
   Government may have paid twice for training 916 students during those three years.


                                               2
! The Replication Project was Overcharged $383,894 and $3,728,512 was Misclassified

   The CET overcharged the Replication Project $383,894 in PYs 1997 and 1998. More
   specifically, CET (1) improperly charged consulting fees and Pell grant related costs, and
   (2) charged unsupported costs for professional service fees. Moreover, the CET
   misclassified $3,728,512 on the project’s final Grantee's Detailed Statement of Costs.
   Therefore, the Replication Project's Grantee's Detailed Statement of Costs is not fairly
   presented.

! The PY 1998 MSFW Training Category was Overstated $291,708

   The PY 1998 MSFW Training category was overstated. More specifically, the CET
   (1) did not use correct tuition rates for certain students, and (2) billed tuition for students
   trained in a prior funding period. DOL was overcharged $291,708. This contributed to a
   material misstatement in the PY 1998 Financial Status Report.

! Other Ineligible Costs of $187,621 were Charged to the MSFW Program

   The MSFW program was charged $187,621 in PY 1998 for ineligible costs charged to two
   different Financial Status Report cost categories. Specifically, the CET (1) allocated
   ineligible costs to the Supportive Services category, and (2) charged unsupported costs to
   the Training category. These overcharges contributed to a material misstatement of the
   Financial Status Report.

! Participant Files Did Not Include Sufficient Documentation to Substantiate Eligibility

   Participant files for both the MSFW and the WtW programs did not include sufficient
   documentation to substantiate participant eligibility. The CET's procedures for
   monitoring applicants' eligibility need improvement. As a result, there were a material
   number of MSFW participants whose eligibility could not be verified. The following table
   shows the results of our audit testing:


                     Program             Total         Participants    Participants
                                       Participants     Sampled         Eligibility
                                                                           Not
                                                                        Verifiable

                      MSFW                4,294            281              16

                       WtW                 482              88              21




                                                  4
! The CET Did Not Submit Indirect Cost Proposals Timely

   The CET did not submit indirect cost proposals timely for PY 1997 and PY 1998. This
   occurred primarily because of major organizational changes occurring in the CET
   Accounting Department. As a result, none of the Federal funding sources has assurance
   that the indirect costs they were paying were reasonable and eligible.

To correct these deficiencies, we are recommending the Assistant Secretary for Employment
and Training require the CET to improve internal controls and financial reporting procedures
for the MSFW program. In summary, we are recommending that the Assistant Secretary for
Employment and Training direct the CET to:

! Correct the misstated administration costs of $3,854,640 reported on the Financial Status
  Reports for the MSFW program and eliminate additional separate administration costs
  related to tuition in future Financial Status Reports.

! Monitor the legal case between the DOE and the CET and, if appropriate, obtain
  $1,079,366 in program credits for Pell grants.

! Credit $383,894 to the Replication Project for professional services unrelated to the grant
  and unsupported costs and require the CET to determine actual costs; revise the
  Grantee's Detailed Statement of Costs and apply budget restrictions; and improve internal
  controls.

! Credit the MSFW program $291,708 for inappropriate tuition charges and require the
  CET to charge the appropriate tuition in the applicable funding year.

! Reduce MSFW program costs by $187,621 for improperly allocated supportive service
  costs and unsupported grant costs.

! Improve documentation of MSFW and WtW eligibility in participant files.

! Submit indirect cost proposals timely.

For specific recommendations on each finding, see the Findings and Recommendations
section of this report.

The CET Response

The CET responded to our draft report with written comments dated September 15, 2000.

Regarding Finding 1, the CET agreed that administration costs for the MSFW program had
been misreported but stated that, due to the way the CET billed costs, actual reimbursement

                                              5
to CET was not affected. CET also provided information related to the WtW program which
showed that the WtW program administration costs were accurately reported.

The CET disagreed with Finding 2. The CET stated DOE misunderstood the CET procedures
and that no Pell grant credits were owed to either DOE or DOL.

The CET agreed that $119,268 questioned in Finding 3 should not have been charged to the
Replication project. The CET did not agree or disagree with the remaining $264,626 but
stated that disallowance would not affect reimbursement to CET because the CET had
overspent the grant.

Regarding Finding 4, the CET agreed that $228,519 for increased tuition should not have
been charged to the MSFW program. However, the CET did not agree that tuition costs of
$63,189 for prior periods were inappropriate.

The CET generally agreed with Finding 5 that some ineligible costs were charged for
supportive services but stated that the sample examined was too small. The CET disagreed
as to the extent this affected grant costs.

The CET disagreed with Finding 6 and stated that every WtW participant file contained either
a CET WtW referral form or a referral letter from a social service agency indicating that the
WtW participant qualified for the CET national training program.

The CET agreed with Finding 7 and has submitted the indirect cost proposals for approval.




                                             6
                                    INTRODUCTION

Background

Since the 1960s, the United States has been heavily committed to improving the employability
of American workers by developing and funding job training programs in various forms.
Current job training programs operate under the Job Training Partnership Act (JTPA), the
Balanced Budget Act of 1997, and the Workforce Investment Act. Programs funded by these
laws provide job training and other services that increase employment and earnings, increase
educational and occupational skills, and decrease welfare dependency. The programs
improve the quality of the workforce and enhance the productivity and competitiveness of the
nation.

The CET is a private, non-profit organization based in San Jose, California. Since 1967 the
CET has been operating a nationwide job training program funded by job training grants from
DOL, several State and local governments, and private sources. For DOL, the CET
administers the MSFW program, the WtW program, and a special Replication Project to
develop the CET training model at other locations. The CET also participates in the Pell
grant program through the DOE and in the Food Stamp program through the Department of
Agriculture. Direct Federal dollars account for more than 50 percent of the CET's annual
revenue, with the balance coming from public and private vocational rehabilitation agencies,
foundations, and individuals.

The CET 's revenues for the period July 1, 1998, through June 30, 1999, were $41.2 million.
The CET's staff exceeds 450 and it maintains 26 training locations nationwide. The CET is
accredited by the Western Association of Schools and Colleges.

In PY 1998 (July 1, 1998, to June 30, 1999), DOL awarded the CET $10,182,354 under Grant
Number C-5439-5-00-81-55 for the MSFW program and $4,003,294 under Grant Number Y-
6802-8-00-81-60 for the WtW program. In addition, during PY 1998, the Replication Project
was modified twice, adding $1,000,000 to Agreement Number J-3912-2-00-81-75, bringing the
total project funding to $7,800,000.

Principal Criteria

The principle criteria we used in our audit included:

! Job Training Partnership Act of 1982, Public Law 97-300, as amended.

! Balanced Budget Act of 1997.

! 20 CFR Part 633: Migrant and Seasonal Farmworker Programs.


                                                7
! 20 CFR Part 645: Welfare-to-Work Grants, Interim Rule.

! 29 CFR Part 95: Grants and Agreements with Institutions of Higher Education, Hospitals,
  and Other Non-Profit Organizations, and with Commercial Organizations, Foreign
  Governments, Organizations Under the Jurisdiction of Foreign Governments, and
  International Organizations.

! 29 CFR Part 96: Audit Requirements for Grants, Contracts and Other Agreements.

! OMB Circular A-110: Uniform Administrative Requirements for Grants and Agreements
  with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations .

! OMB Circular A-122: Cost Principles for Non-Profit Organizations .




                                            8
                  OBJECTIVES, SCOPE, AND METHODOLOGY

The Office of Inspector General, Office of Audit, performed audits of the CET for DOL
grants during the period July 1, 1998, to June 30, 1999. The grants covered are:

           ! Grant Number C-5439-5-00-81-55 (MSFW Program);
           ! Grant Number Y-6802-8-00-81-60 (WtW Program); and
           ! Cooperative Agreement Number J-3912-2-00-81-75 (Replication Project).

Our audits covered the costs reported on the related Financial Status Reports (Exhibits A
and C) and the Grantee's Statement of Detailed Costs (Exhibit E). We expanded the scope of
our audit to cover earlier years in areas where we noted material problems occurring in PY
1998. That work was limited to quantifying the dollar impact of identified problems. We
conducted our audits in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States.

Financial Audit

The primary purpose of our financial audit was to determine whether the charges the CET
reported were reasonable, allowable, and allocable in accordance with its grants, applicable
cost principles, and Federal regulations.

In planning our audit, we performed a quality control review of the independent auditor’s
workpapers supporting the Fiscal Year 1998 OMB Circular A-133 audit of the CET. That
review was performed to avoid duplication and build upon the work performed by the
independent auditor and to obtain an understanding of the internal controls used by the CET
to safeguard and manage assets and to report costs to DOL.

Our audit covered grant expenditures reported on the CET's Financial Status Reports and
the Grantee's Detailed Statement of Costs. The amounts reported on these statements do not
reflect the amount of cash actually paid to the CET.

Program Results Audit

The primary purpose of our program results audit was to determine whether the CET
accurately reported program outcome statistics regarding the number of participants served
for both the MSFW and WtW programs in the CET’s program reports to the ETA.

To accomplish this we examined two statistically valid samples totaling 369 participants for
eligibility and accuracy of outcome reporting.




                                               9
Entrance/Exit Conferences

We held our entrance conference with the CET’s Executive Director and senior staff on
February 18, 2000, and started field work on March 13, 2000. We completed fieldwork and
held an exit conference with the CET on August 9, 2000.




                                           10
Mr. Raymond L. Bramucci
Assistant Secretary
  for Employment and Training
Employment and Training Administration
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

               ASSISTANT INSPECTOR GENERAL’S REPORT ON THE
                       FINANCIAL STATUS REPORTS AND
                  GRANTEE'S DETAILED STATEMENT OF COSTS

We have audited the Financial Status Reports, (Exhibits A and C), prepared by the CET for
the period July 1, 1998, through June 30, 1999, under DOL Grant Numbers C-5439-5-00-81-
55 (MSFW Program) and Y-6802-8-00-81-60 (WtW Program). We also audited the Grantee's
Detailed Statement of Costs (Exhibit E) prepared by the CET for the period July 1, 1998,
through June 30, 1999, for DOL Agreement Number J-3912-2-00-81-75 (Replication Project).
The grant agreements require the Financial Status Reports and the Grantee's Detailed
Statement of Costs to be prepared in accordance with OMB Circular A-122 and ETA
regulations. These requirements are a comprehensive basis of accounting other than
generally accepted accounting principles. The amounts reported on the Financial Status
Reports and the Grantee's Detailed Statement of Costs are the responsibility of the CET’s
management. Our responsibility is to express an opinion on the Financial Status Reports and
the Grantee's Detailed Statement of Costs based on our audits.

We conducted our audits in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States.
Those standards require that we plan and perform our audits to obtain reasonable assurance
about whether the costs claimed in the Financial Status Reports and the Grantee's Detailed
Statement of Costs are free of material misstatements. An audit includes examining, on a test
basis, evidence supporting the costs claimed. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the
overall presentation of the costs reported. We believe our audits provide a reasonable basis
for our opinion.

As discussed in the Findings and Recommendations section of this report, the CET duplicated
grant costs and included inappropriate costs in the MSFW Financial Status Report for PY
1998. As a result, DOL grant costs on the Financial Status Report may be misstated by as
much as $1,578,314 for PY 1998. In addition, we are questioning $4,218,915 for other
program years due to noncompliance with ETA directives. Finally, DOL grant costs totaling
$3,728,512 have been misclassified on the Grantee's Detailed Statement of Costs.

ETA will make a final determination on the audit recommendations regarding allowability of

                                             11
cost and improving internal controls, in accordance with Department of Labor Manual Series
8-500. This directive requires resolution of audit recommendations within 180 days of this
report.

Opinion on Financial Statements

In our opinion, because of the effects of misstating and misclassifying DOL program costs as
discussed in the preceding paragraphs, the Financial Status Report and the Grantee's
Detailed Statement of Costs do not present fairly the financial results of DOL Grant Numbers
C-5439-5-00-81-55 (MSFW Program) or Agreement Number J-3912-2-00-81-75 (Replication
Project) for the period July 1, 1998, through June 30, 1999, in accordance with the provisions
of the grant agreements, ETA regulations, and OMB Circular A-122.

However, in our opinion, the Financial Status Report does present fairly the financial results
of DOL Grant Number Y-6802-8-00-81-60 (WtW Program) for the period July 1, 1998,
through June 30, 1999, in accordance with the provisions of the grant agreement, ETA
regulations, and OMB Circular A-122.

Report on Internal Controls

In planning and performing our audits of the Financial Status Reports for PY 1998 and the
Grantee's Detailed Statement of Costs for PY 1998 submitted by the CET, we considered the
CET’s internal controls over financial reporting in order to determine our auditing procedures
for the purpose of expressing our opinion on the costs reported and not to provide reasonable
assurances on the internal controls over financial reporting.

We obtained an understanding of the design of relevant policies and procedures and whether
they have been placed in operation, and we assessed control risk for the CET.

We noted certain matters involving internal controls and their operation that we consider to
be reportable conditions under standards established by the American Institute of Certified
Public Accountants. Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control structure that, in our
judgment, could adversely affect the CET's ability to record, process, summarize and report
financial data in a manner that is consistent with the assertions of management in the
Financial Status Reports and the Grantee's Detailed Statement of Costs. The findings
discussed in the Findings and Recommendations section of this report are considered
reportable conditions.

We also noted certain matters that we consider to be material weaknesses. A material
weakness is a reportable condition in which the design or operation of one or more of the
specific internal control components does not reduce to a relatively low level the risk that
errors or irregularities in amounts that would be material in relation to the financial

                                                12
statements being audited may occur and not be detected within a timely period by employees
in the normal course of performing their assigned functions. Findings 1, 2, 3, and 4 in the
Findings and Recommendations section of this report are considered material weaknesses.

Our consideration of the internal controls would not necessarily disclose all matters in internal
controls that might be reportable conditions and, accordingly, would not necessarily disclose
all reportable conditions that are considered to be material weaknesses as defined above.

Report on Compliance with Laws and Regulations

Compliance with laws and regulations applicable to these grants, as well as provisions of the
grant agreements, is the responsibility of the CET management. As part of obtaining
reasonable assurance about whether the costs claimed are free of material misstatements, we
performed tests of the CET’s compliance with certain provisions of laws, regulations, and
contracts/grants, noncompliance with which could have a direct and material effect on the
Financial Status Reports or the Grantee's Detailed Statement of Costs. However, our
objective was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion.

The results of our tests disclosed instances of noncompliance. These are described in the
Findings and Recommendations section of this report and are required to be reported by
Government Auditing Standards. The ultimate resolution of these findings cannot be
presently determined. Accordingly, no provision for any liability that may result has been
recommended for recognition on the Financial Status Reports (Exhibits A and C) or the
Grantee's Detailed Statement of Costs (Exhibit E). ETA will resolve the non-compliance
issues in accordance with Department of Labor Manual Series 8-500, which requires
resolution within 180 days of this report.

We considered these instances of noncompliance in forming our opinion on whether the CET's
Financial Status Reports and the Grantee's Detailed Statement of Costs are presented fairly
in all material respects.




                                               13
This report is intended solely for the information and use of the CET and ETA and is not
intended to be, and should not be, used by anyone other than these specified parties.




John J. Getek
Assistant Inspector General
 for Audit


August 9, 2000




                                             14
                     FINDINGS AND RECOMMENDATIONS

Overall, we concluded that the CET met the objectives of the MSFW, WtW, and Replication
grants covered by this audit. For both the MSFW and WtW programs, the CET met its
performance goals for entered employment rate and average hourly wage at termination
(Exhibits B and D). The CET accurately reported program statistics in program reports
regarding participants served and outcomes achieved. Generally, the CET made appropriate
participant eligibility determinations in accordance with Federal regulations and its own
policies, although documentation of eligibility needed improvement. No final program report
was available for the Replication Project; therefore, we did not evaluate the program results
of that project.

We concluded that the CET financial systems need significant improvements to provide
accurate financial reports of eligible costs. The following findings discuss the specific
weaknesses we found and the associated questioned costs.

1.   Administration Costs of $3,854,640 are Misstated

The CET administration costs totaling $3,854,640 on the PY 1996, PY 1997, and PY 1998
MSFW program Financial Status Reports were misstated. The CET reported administration
costs already included in their published tuition catalog rates and inaccurately reported other
administration costs. As such, the related Financial Status Reports are materially misstated.

Administration Costs

Besides funding direct training costs, the MSFW program recognizes that there is a cost to
administer the program. Administration costs consist of all direct and indirect costs
associated with the management of the program, such as:

     •   salaries and fringe benefits of individuals in executive, fiscal, personnel,
         maintenance, communications, and similar type functions;

     •   salaries and fringe benefits of individuals in direct program administrative positions,
         i.e., program analysts, labor market analysts, and similar type functions; and

     •   costs of clerical personnel, materials and equipment, space, utilities, and travel
         associated with the above functions.

The MSFW program establishes an administration cost maximum of 20 percent of the grant
amount.

The CET generally contracts with funding agencies on a tuition basis. In this approach, the
CET publishes a per student price that includes all the costs of training a student (including

                                               15
administration costs) for a particular skill. The CET uses this tuition price for MSFW, WtW,
and all other the CET students, including the general public.

The CET MSFW grant agreement states:“. . . CET contracts with all funding sources . . .
[are] . . . based on its published catalog tuition . . . .” The grant agreement does not mention
separately charging administration (or any other type) of costs.

CET Did Not Follow Grant Provisions

However, the CET did not follow the grant provisions in reporting grant costs and reported
administration costs related to training separate from, and, in addition to, tuition. For the
PY 1998 MSFW Financial Status Report, the CET calculated training cost ($9,797,170 total)
and entered 10 percent of that amount ($979,717) into the Administration category on the
Financial Status Report. Neither the grant agreement nor the MSFW program regulations
allow this process. Also, the rate is basically unsupported since it does not represent an
approved indirect cost rate or other approved rate application.

In PY 1996 and 1997, the CET reported MSFW administration charges of $1.5 million and
$1.3 million, respectively. The PY 1996 and 1997 MSFW Financial Status Reports were
prepared by an outside firm and current CET personnel could not explain how the amounts
reported were calculated. They did a recalculation using an indirect cost rate for
administration cost and still could not support the amount reported. However, using the
indirect cost rate as administration cost may not be appropriate since CET's indirect cost rate
is based on costs not on tuition. Therefore, we are questioning these amounts also. Total
reported costs for administration costs for the 3 years were $3,854,640.

These reported amounts are improper. The grant does not provide for additional costs
beyond tuition. Tuition is a fixed price. This is how the CET charges other funding agencies
and the general public. Since tuition is a unit price, and should cover all the costs of training
(including administration costs) the CET has essentially reported the MSFW administration
costs twice. We have accepted some minor charges for the MSFW program that the CET
would not normally incur for a non-MSFW student, such as stipends and supportive services.
However, administration cost is a major cost that is applicable to all students regardless of
funding source. The CET does not charge other agencies or the general public additional
costs over tuition. It should not include the additional costs for the MSFW program either.

This position is further supported by the CET's Cumulative Quarterly Financial Status
Report which contains the following note:

                  The CET's tuition based services are all inclusive (direct &
                  indirect expenses) with a built-in administrative cost @
                  12.89%.


                                                16
The CET management and fiscal personnel stated that there was a misunderstanding by
previous employees preparing the Financial Status Reports and that adding administration
costs to tuition was in error.

As a result of reporting administration costs in addition to tuition costs, the CET over
reported the PY 1998 MSFW program costs by $979,717. We reviewed the previous 2 years
Financial Status Reports to determine whether the problem occurred in those years also and
found that the CET had misstated to DOL a total of $2,874,923 for those years. Therefore,
we are questioning a total of $3,854,640 reported for the MSFW program for the last 3 years.

Recommendations

We recommend that the Assistant Secretary for Employment and Training require the CET
to:

a.   Correct the misstated administration costs of $3,854,640 reported on the Financial
     Status Reports for the MSFW program by (1) developing a consistent method of
     determining administration costs and (2) obtaining ETA approval of this method.

b.   Determine whether this correction affects cash draw downs and refund any excess.

c.   Eliminate additional separate administration costs related to tuition in future Financial
     Status Reports.


The CET Response

In their response, CET stated:

        The FSR form is designed for cost reimbursement contracts, not for tuition
        based contracts where some costs (tuition) include administration and other
        costs (stipends and supportive services) do not include administration.

        When CET first began tuition based contracting it tried to submit FSR' s with
        training administration included in the training line item. We were directed
        (verbally) to separate out the administrative costs associated with training and
        to report them on the Administration line of the report. We did so consistently
        until the OIG audit period of PY 1998. At the time of submittal CET was just
        taking back in-house the fiscal function and an FSR was completed showing
        zero administration because the administrative costs had not been pulled out
        of the Training line item. By direction of the Contracts Department, Fiscal
        was instructed to add 10% for administration because "there had to be some
        administrative costs."

                                              17
         The result for that year alone was that total costs were overstated. However,
         this was an error in reporting only. CET did not draw down the extra 10%,
         since that amount was not reflected in our books which form the basis for
         drawdowns. This overstatement of costs did not occur in PY 1996 and PY
         1997. In those years CET reduced tuition reported in order to move
         administrative costs to the administration line in the report.

The CET also provided explanations and documentation which reduced the cost being
questioned.

OIG Evaluation of the CET Response

While the CET acknowledges the misreporting of administration costs for PY 1998, the CET
states that these costs were eliminated from training costs for PY 1996 and 1997. However,
the documentation provided does not support the amounts reported on the Financial Status
Reports. Also, as noted in the finding, the CET applied their indirect cost rate to tuition costs
to determine administration costs. This is not correct since the indirect costs are based on
actual costs, not tuition. The CET still needs to work with ETA to develop an acceptable
method to report administration costs.

Therefore, these recommendations are open and unresolved.




                                                18
2.   The CET Did Not Credit the MSFW Program with Pell Grant Proceeds

According to a DOE program review report, the MSFW program was overcharged $1,437,035
in PYs 1993, 1994, and 1995. The DOE concluded that this occurred because the CET did not
credit the MSFW program with DOE Pell grant funds. Although the CET disagreed with the
DOE conclusion, the Federal Government may have paid twice for training 916 students
during those three years.

Pell Grants

The CET's MSFW program requires the CET to credit the MSFW program with Pell grants
received by MSFW program students. Pell grants are Federal funds provided by the DOE to
eligible students to offset the cost of education and job training. Most of the CET students
are eligible for Pell grants and the CET requires them to apply for Pell grants so that MSFW
program funds can be spread among more eligible farmworkers. If a student receives a Pell
grant, MSFW program funds only have to cover the tuition costs which exceed the Pell grant
amount.

DOE Review

The DOE reviewed the CET's administration of the Pell grant financial aid program in March
1996, and concluded that the CET was not applying Pell grant funds to offset farmworker
tuition. DOE issued a final program review determination on April 29, 1998, concluding that
the CET was not complying with the Pell grant program requirements. The determination
letter states:

              . . . CET consistently billed DOL for 100% of the tuition, drew
              funds from DOL for such billing, then subsequently drew Federal
              Pell funds. Frequently, CET did not then offset its Federal Pell
              receipts against future DOL Farmworker billing and draws.

The DOE concluded that the CET owes the Federal government, either DOE or DOL,
$1.4 million.

The DOE determination has been challenged by the CET. The CET's position is that the
"credits" simply do not exist and that the CET does not owe the DOE or the MSFW program
any funds relative to this issue. The CET insists that for the 3 years in question, the CET
could have charged the MSFW program about $20 million, but actually only charged
$18 million. According to the CET, since it charged about $2 million less than it could have,
there is no credit due. The issue has been appealed by the CET to a DOE Administrative
Law Judge.




                                             19
DOL OIG's Position

We reviewed documentation concerning the case provided by DOE, including the CET's
responses. We believe DOE has a supportable position although we computed the amount
that the CET may owe DOL to be $1,079,366. Therefore, we are questioning the $1,079,366.

However, since the matter is scheduled to be decided by an Administrative Law Judge, we do
not believe that ETA should recover any funds from the CET at this time. ETA should
actively monitor the case in cooperation with DOE and obtain MSFW program credits if the
Administrative Law Judge finds in DOE's favor.

Recommendation

We recommend that the Assistant Secretary for Employment and Training monitor the DOE
case involving the CET, and if the Administrative Law Judge rules against the CET, require
the CET to repay $1,079,366 to the MSFW program.

The CET Response

The CET stated that all MSFW and Pell grant funds had been applied to student tuition
charges and that no credits of any kind were owed. The CET took exception to reliance on
DOE staff work and also believes the finding should be removed from the final report, stating
that:

              . . . the draft audit finding incorrectly seeks to rely wholesale, and via
              incorporation, upon a DOE program review that explicitly rejects any
              contention that monies are owed to the MSFW programs. No independent
              basis exists or is cited to support any contention that CET owes monies to
              the MSFW programs. Therefore, we believe that the draft finding should be
              removed from any final report.

OIG Evaluation of the CET Response

We did not rely entirely on the DOE review. We reviewed the program report, met with DOE
officials involved with the review, and obtained and analyzed supporting documentation for the
DOE conclusions. We also reviewed and analyzed the CET's responses and documentation
provided in support of its position. Based on our reviews, we concluded the DOE conclusions
were reasonable.

However, as the finding states, the final decision is pending before an administrative law
judge. Until the final decision is made this recommendation is open and unresolved.




                                              20
3.   The Replication Project was Overcharged $383,894 and $3,728,512 was Misclassified

The CET overcharged the Replication Project in PYs 1997 and 1998. Contrary to OMB
Circular A-122 requirements, the CET charged professional fees not directly related to the
grant. The CET also misclassified $3,728,512 on the grant’s final Grantee's Detailed
Statement of Costs. As a result, the CET overcharged DOL $383,894 and the Replication
Project Grantee's Detailed Statement of Costs is not fairly presented.

Replication Project

The Replication Project is a cost-reimbursable project governed by a formal agreement
between the CET and DOL. The project recognized the CET’s successful job training
program model and had the objective of developing 10 CET model training programs in
locations throughout the country. The agreement provided that DOL would reimburse the
CET for all eligible costs incurred in replicating the CET program model at the selected
locations.

In determining eligible costs, the agreement and OMB Circular A-122 govern the Replication
Project. Section A.2.a. of OMB Circular A-122 states that to be allowable, costs must be
reasonable for the performance of the award and the cost must be allocable to a particular
grant. In defining allocable costs, the Circular states that a cost is allocable to a particular
cost objective only in accordance with the benefits received. In addition, Section A.2.g.
requires costs to be adequately documented.

Items Improperly Charged

In PY 1997 and 1998 the CET charged the Replication Project Professional Services category
$383,894. The charges were for fees paid to several private companies for services rendered
to the CET. We reviewed the contracts with these firms, discussed them with CET officials,
and contacted several contractors. We found that all the firms were under contract to CET
for purposes unrelated to the Replication Project and there were no new contracts or
amendments issued to specify work directly related to the Replication Project. We could not
identify any clear relationship between the services provided and the Replication project. In
total, the CET overcharged DOL $383,894 contributing to a material misstatement of the
Grantee's Detailed Statement of Costs. We question the costs of $383,894.

!    In PY 1998, the CET charged the Replication Project $119,268 for services of several
     consulting firms. We question the $119,268 charged to the Replication Project for these
     services. CET officials acknowledged these charges were made in error.

!    In PY 1997, the CET charged the Replication Project $104,802 for services of a
     management firm that DOE required CET to hire to verify Pell grant applications for
     CET students. CET officials stated the company also assisted in developing a new CET

                                               21
     management information system (MIS). We question the $104,082 for this contract.

!    In PY 1997, the CET charged $159,824 for the services of two accounting firms.
     According to the CET, both contractors provided accounting services for contracts
     awarded to the CET by the City of Chicago. Although Chicago was a replication site, we
     do not see any relationship between these services and the Replication Project. CET
     officials also stated that the companies assisted in developing a new MIS which was part
     of the CET replication model. We question the $159,824 for these services.

Cost Categories Misstated

The closeout Grantee's Detailed Statement of Costs did not correctly categorize reported
costs. The CET could not determine how much was actually spent in each category so it put
all of the uncategorized expenses in the “Other Direct Cost” category. This caused the CET
to materially misstate the final Grantee's Detailed Statement of Costs.

The Replication Project started in 1992 and ended in March 1999. In June 2000, the CET
prepared the final Grantee's Detailed Statement of Costs and submitted it to DOL.

According to the grant agreement, the CET needed to obtain advance approval for any budget
variances that exceeded 20 percent of the budget for that item, except personnel and related
costs. For these two types of costs, the CET needed advance approval for any variances from
the budget. To determine compliance with these grant provisions, CET needed to report costs
by category.

The CET’s Grantee's Detailed Statement of Costs, however, does not accurately categorize
reported costs. Comparisons between budget and actual costs cannot be made. This is
because the CET’s accounting records are not available to accurately separate costs by
budget category.

According to the CET, its accounting records contain only the present year’s and one prior
year’s information. Detailed costs for periods before this are not available. Therefore, to
prepare the final report for the Replication Project, the CET used their single audit reports for
those periods. The audit reports, however, did not break out the costs in sufficient detail to
allow completion of the Grantee's Detailed Statement of Costs by approved line item.

Therefore, the CET categorized the last 3 years data from its accounting system according to
the grant budget line items, but lumped all prior period costs obtained from the single audit
reports into “Other Direct Costs.” The following table shows the effect this has on the
Grantee's Detailed Statement of Costs.


              Category                 Budget Amount          Reported Amount


                                               22
             Other Direct Costs         $1,059,556               $3,728,512

             Personnel                  $4,786,654               $2,643,810

The CET officials told us most of the amounts reported in the "Other Direct Cost" category
were actually Personnel costs.

As a result, the CET materially misstated the Grantee's Detailed Statement of Costs and
neither the CET nor ETA can determine exactly how the Replication Project funds were spent
or whether the CET complied with the budget restrictions contained in its grant agreement.

Conclusion

The CET improperly charged items to the Replication Project and misstated the cost
categories on the Grantee's Detailed Statement of Costs. This resulted in overcharges of
$383,894 and a misclassification of $3,728,512.

Recommendations

We recommend that the Assistant Secretary for Employment and Training instruct the CET
to:

a.   Credit the Replication Project $383,894 for charges unrelated to the Replication Project.

b.   Determine actual costs by category and revise the Grantee's Detailed Statement of
     Costs accordingly.

c.   Apply budget restrictions to cost categories per the revised statement and credit DOL
     with any unapproved budget overruns.

d.   Improve internal controls to ensure only applicable charges are made to DOL grants
     and ensure that adequate documentation is maintained for all charges.

The CET Response

The CET partially agreed with OIG's questioned costs, stating:

        CET has acknowledged in a June 20, 2000 memo to the auditor that the
        $119,268 professional fee was miscoded and does not belong in this grant.
        This did not result in an overcharge to the Replication grant, since the total
        grant expenditures exceeded the total grant amount.

The CET did not agree or disagree with the other costs questioned. The CET stated:

                                             23
The $383,894, even if disallowed, would have been covered by CET, with
unrestricted funds.




                                 24
OIG Evaluation of the CET Response

The CET's partial agreement with the finding is accepted, but the remaining $264,626 in
questioned costs related to non Replication Project activities was not addressed except to
state that disallowance would not affect reimbursement to the CET.

We do not agree that disallowance would not affect reimbursement. In accordance with our
recommendations, the CET needs to eliminate the $383,894 from grant costs and apply the
budget limitations to cost categories to determine eligible costs. Until both of these actions
are accomplished proper reimbursement to the CET cannot be determined.

Accordingly, these recommendations are open and unresolved.




                                               25
4.   The PY 1998 MSFW Training Category is Overstated by $291,708

The PY 1998 MSFW Training category is overstated by $291,708. This occurred because the
CET (1) did not use correct tuition rates for certain students, and (2) billed tuition for students
trained in a prior funding period. This overstated amount contributed to a material
misstatement in the PY 1998 Financial Status Report.

Tuition Charges

Every CET training course has a published catalog tuition rate. Courses and course length
are changed periodically and tuition rates are adjusted accordingly. For example, in 1995, the
CET’s Child Care Provider course had a tuition rate of $6,590 and a course duration of 1,060
hours. Two years later the tuition was increased to $6,770. Eight months later the course
duration was lowered to 900 hours and the tuition was lowered to $6,050.

The CET generally contracts with all its funding sources on a tuition basis. The CET MSFW
grant agreement specifically provides that training costs are “. . . based on . . . published
catalog tuition . . . .” The two published catalog tuition schedules in effect during PY 1998
had effective dates of February 2, 1998, and January 1, 1999.

The grant also requires compliance with 29 CFR Section 95. Section 95.28 applies a matching
principle to MSFW grantees, stating: “...a recipient may charge to the grant only allowable
costs resulting from obligations incurred during the funding period . . . .” Since each MSFW
funding period is July 1 through June 30, MSFW recipients may charge the grant only with
obligations incurred during this period.

Published Tuition Rates Exceeded

The CET charged the MSFW program with tuition that exceed the published catalog rates,
contrary to the grant agreement provisions.

In July, August, and September 1998, the CET enrolled 262 students in MSFW program
training courses. At the time the students enrolled, the appropriate tuition rates for each
course as published in the CET’s February 2, 1998, catalog were charged to the grant. In
September 1998, the CET retroactively increased the tuition rates charged in the billing
system (not in the catalog) for these 262 students only and charged the MSFW program for
the additional tuition.

For example, in the February catalog the Child Care Provider course tuition was $6,050 and
this amount was charged for each student who entered the Child Care Provider course in July,
August and September, 1998. Subsequently, the Child Care Provider tuition rate was
increased to $6,770 for the MSFW program only, and an additional $720 per student was
retroactively applied to all course students enrolled in July, August and September, 1998.

                                                26
The same happened with the Truck Driver course, using tuition rates of $5,645 and $6,230.
Overall, the MSFW program was charged an additional $188,118 for tuition rates higher than
the published catalog rates.

In October 1998, the CET enrolled another 62 MSFW program students. The higher tuition
rates were applied and $301,393 was charged to the grant; $40,401 more than what would
have been charged using the February 2, 1998 catalog rates.

Overall, the MSFW program was charged $228,519 tuition that exceeded the CET published
catalog rates and also was not charged to other CET programs.

In November 1998, the CET rolled back the tuition rates charged to the MSFW program to
those in effect as of February 2, 1998. However, the CET did not reverse the $228,519 in
increased tuition that had been charged to the MSFW program.

According to the CET officials, the tuition charges for the MSFW program students had been
increased due to extra transportation costs associated with the program. The CET officials
stated that the tuition increases were rescinded in November 1998, when the CET’s scholastic
accreditation body advised that it did not permit member schools to charge different rates for
students attending the same course. We could not verify that there were any unique
transportation costs for the MSFW program or determine why the $228,519 was not refunded
to the grant because the individuals involved when these transactions occurred have left the
CET.

We are questioning the $228,519 because the tuition rates charged exceeded the published
tuition rates which violates the grant provisions.

Tuition Charged to Wrong Period

The CET charged $63,189 in tuition to PY 1998 for training classes that were completed in the
prior funding year. This occurred because of the way the CET accounted for MSFW students
eligible for DOE Pell grants. As a result, PY 1998 funds were used to pay for PY 1997 costs.
This is not allowable.

The CET leverages MSFW program funds with DOE Pell grant funds as a way of serving
more farm workers. Pell grants are monies given by the DOE for eligible students to pay for
training costs they incur. A significant proportion of the MSFW program students enrolled in
the CET are eligible for, and receive, Pell grants while attending the CET training.

If a MSFW program student is eligible for a Pell grant, the CET enters a credit in that
student’s record and charges the MSFW program the difference between the catalog tuition
and the estimated Pell grant amount. When the student’s Pell grant is funded, the balance in
the student’s account becomes zero. If, for some reason, the student does not actually get the

                                              27
Pell grant, the CET removes the credit for the estimated Pell grant and charges the MSFW
program for the remainder of the tuition not billed. However, this transaction is generally
done a lengthy time after enrollment since the Pell grant application takes some time to
process.

In June 1999, the last month of PY 1998, the CET found that credits had been given for a
large number of students who did not get their anticipated Pell grants. To correct this, the
CET charged the PY 1998 grant $91,981 for estimated Pell grant credits which had not been
funded by the DOE but had been credited to the MSFW program.

However, the charge included $63,189 related to 36 students who had completed their training
before PY 1998. For example, $1,645 was billed in PY 1998 for one student who entered the
CET training in July 1997 and completed training prior to the start of PY 1998.

Charges to the MSFW program are limited per 29 CFR §95.28 to allowable costs resulting
from obligations incurred during the funding period; in this case, PY 1998. Therefore, the
training costs for these 36 students must be charged to the funding period in which they
received their training, i.e., PY 1997.

The CET officials stated that the reason these costs were charged to the PY 1998 grant was
the lengthy time between requesting a Pell grant and the actual receipt of the funds from the
DOE. To avoid overbilling DOL funds, the CET estimates the Pell grant a student will
receive and only bills the estimated unfunded tuition. This, then causes problems if a student
does not receive a Pell grant.

We do not believe that the timing problems encountered by the CET justify charging PY 1998
for PY 1997 tuition costs. We are, therefore, questioning the $63,189.

Conclusion

The PY 1998 MSFW Financial Status Report training category is overstated $291,708
because the CET charged tuition rates higher that the published catalog rates and charged for
training costs incurred in prior periods. This contributed to a material misstatement of the PY
1998 MSFW Financial Status Report.

Recommendations

We recommend that the Assistant Secretary for Employment and Training require the CET
to:

a.   Credit $291,708 to the MSFW program.

b.   Revise the Financial Status Report to reflect the lower cost of training.

                                              28
c.   Limit training costs to published catalog tuition on all future grants.

d.   Match expenses to obligations incurred during a funding period on all future grants.

The CET Response

CET generally agreed with this finding and recommendation. However, regarding that portion
of the finding relating to $63,189 in tuition charged to PY 1998 for training provided in prior
periods, the CET disagreed and stated:

         The timing problems associated with reimbursement of Pell grants are
         considerable. At the time of enrollment CET reduces tuition to the DOL grant
         by the full tuition portion of the Pell grant for students who are deemed by CET
         to be eligible. As noted in a detailed letter to the OIG auditor dated June 30,
         2000 when a school is on "Reimbursement Status" the award process by DOE
         is very slow and awards may be delayed as much as six or eight months. So,
         how should we report late adjustments for students who completed training in
         a prior year and are therefore not carryover students?

OIG Evaluation of the CET Response

The CET's agreement with $228,519 of this finding is accepted. While we agree there are
timing problems associated with Pell grants, ETA regulations do not allow tuition costs of one
period to be charged to another period of the MSFW program. Therefore, these
recommendations are open and unresolved.




                                               29
5.   Other Ineligible Costs of $187,621 were Charged to the MSFW Program

The MSFW program was charged $187,621 in PY 1998 for ineligible costs charged to two
different Financial Status Report cost categories. These overcharges occurred because the
CET allocated ineligible costs for Supportive Services, and charged unsupported costs to the
Training category. As a result, the DOL was overcharged $187,621, contributing to a
material misstatement of the Financial Status Report.

Supportive Services and Services Only Categories

In addition to providing job training, the MSFW program also provides supportive services
such as clothing, temporary housing, transportation, and child care. These costs are reported
in the Financial Status Report Supportive Services category. Moreover, the PY 1998
MSFW program provided funds for emergency assistance to farm workers who had suffered
economic harm from extreme weather in California. These costs were reported in the
Services Only category of the Financial Status Report.

The allowability of costs for these MSFW program categories are governed by 20 CFR
§633.304 (c)(3) which defines supportive services, and OMB Circular A-122 Cost Principles
for Non-Profit Organizations which defines allowability and allocability of costs.

Training-Related Supportive Services Costs Improperly Calculated and Allocated

The CET charged the PY 1998 MSFW program $158,888 for supportive services. This
amount is materially incorrect because (1) it contains non-supportive service costs, and (2) it
is incomplete. Thus, we were not able to determine the true Supportive Services costs.

The CET charges supportive services costs to its funding sources in two ways. Costs that can
be readily identified with a particular student are charged to the supporting funding source
directly. Costs that cannot be allocated to a particular student are pooled and allocated to the
various funding sources according to the number of students supported by each funding
source. This allocation is done separately from, and, in addition to, the CET's indirect cost
allocation. For example, the costs of a health screening required for the Child Care Provider
course in San Jose, California (an allowable MSFW program supportive services cost) would
be allocated to the various funding sources based on the percentage of their students
attending classes at the San Jose site. The MSFW program's share of that cost would be
properly charged to the Training-Related Supportive Services category.

Supportive services are defined in 20 CFR §633.304(c)(3):

              Costs of services which are necessary to enable an eligible
              individual to participate in training or subsidized employment under
              section 402 and to obtain subsequent unsubsidized employment.

                                               30
In addition, Section A.2.a. of OMB Circular A-122 requires that to be allowable, costs must be
both reasonable and allocable to the MSFW program.

However, the CET allocated costs to the Supportive Services category from a pool that
included items which by definition were not allocable, neither in whole nor in part, to
Supportive Services. Specifically, we judgementally selected and examined eight items from
October 1998's charges and determined that six of the eight items (75 percent), totaling
$3,897, should not have been included in the Supportive Services category. The following
table shows the six items:


                  Amount                        Type of Cost

                     $864      Educational testing for non-MSFW students

                     $328      Verification of Pell grant applications

                     $344      Vehicle Registration

                   $2,187      Property Tax

                      $73      Equipment Tax
                     $101      Late Fee

While these charges may be supportive services for some of the CET students, they do not
relate to the MSFW program and no portion may be allocated to it.

Due to the high incidence (75 percent) of ineligible items in our sample, we are questioning the
entire category and recommending the CET analyze the costs and remove ineligible costs.

Supportive Service Costs Not Complete

The Supportive Services category is not complete. As a result, the amount of supportive
services may be understated. Due to internal problems during our audit period, the CET was
several months in arrears in its accounting. At the time the PY 1998 Financial Status Report
was prepared, the CET only had 10 months of accounting data available. In order to complete
the Financial Status Report, the CET used the 10-month figure for Supportive Services. In
June 2000, we received a detailed listing of supportive service charges from the accounting
system. The listing totaled $217,000, considerably more than the amount reported on the
Financial Status Report. The additional items had been entered into the accounting system
after the Financial Status Report was submitted to ETA and no corrected Financial Status
Report was sent to ETA.

However, the $217,000 includes ineligible allocated costs as discussed above. Therefore, we
cannot accept the $217,000 as the correct amount for Supportive Services. However, we

                                              31
recognize that the CET may have additional eligible costs to include in the Financial Status
Report. The CET needs to analyze all the supportive service costs, remove ineligible costs
and correct the Financial Status Report for total eligible costs.

Unsupported Training Costs.

The CET charged the PY 1998 Training category $28,733 for which no support was provided.
The CET’s Training category consists of tuition, stipends, and any subcontract costs. For
PY 1998, the CET's accounting system showed the following balances:


                        Sub-Category               Cost

                   Stipends                        $2,074,986

                   Subcontracts                      $104,530

                   Tuition                         $7,033,433

                   Total Training                  $9,212,949

This amount supported by the CET's accounting system is $28,733 less than the $9,241,682
reported on the Financial Status Report. According to the CET management, adjustments
were made to the accounting system after the Financial Status Report was prepared which
reduced the Training costs.

Conclusion

As a result of allocating ineligible costs to the Training-Related Supportive Services category
and charging unsupported costs of $28,733 to the Training category, we are questioning
$187,621 in ineligible costs. In addition, due to not including all costs incurred for this
category, we cannot attest to the actual amount of eligible costs in these categories.

Recommendations

We recommend that the Assistant Secretary for Employment and Training require the CET
to:

a.   Reduce grant costs by $187,621.

b.   Determine the actual total amount of eligible Training-Related Supportive Services
     costs incurred in PY 1998.

c.   Revise the PY 1998 Financial Status Report to reflect the correct amounts chargeable
     to the Training and the Training-Related Supportive Services categories.

                                              32
The CET Response

The CET generally agreed with this finding and recommendation, with the exception of
reducing grant costs by $187,621. The CET stated:

        Eight supportive services costs judgmentally selected from one month is a very
        small sample upon which to base a 75% ineligible conclusion. During PY 1998
        some Training Related Supportive Services costs were put into the Other
        Costs account in error and were not properly reported. Also, for reasons
        discussed in the audit report, CET may have understated PY 1998 supportive
        services costs.

        The revised FSR for PY 1998 attached as an exhibit above properly report
        eligible supportive services costs and they are isolated in CET's accounting
        system now. The FSR also now reflects Training costs drawn from CET's
        audited financial records.

The CET's revised Financial Status Report showed a total supportive services cost of
$123,941.

OIG Evaluation of the CET Response

We do not agree that our sample was too small. The fact that 75 percent of the items
reviewed were questionable clearly shows the need for the CET to review the costs charged
for supportive services in detail. Therefore, the $187,621 remains questioned until this is
accomplished and explained to ETA. These recommendations remain open and unresolved.




                                             34
6.   Participant Files Did Not Include Sufficient Documentation to Substantiate Eligibility

Participant files for both the MSFW and the WtW programs did not include sufficient
documentation to substantiate participant eligibility. The CET lacked adequate procedures
for documenting applicants eligibility. Based on the results of our PY 1998 statistical samples,
we concluded that:

     •   6 percent of the MSFW participants, and
     •   22 percent of the WtW participants,

did not have adequate documentation to substantiate their eligibility. Since we could not
determine that any of these participants tested were actually ineligible for the programs, we
are not questioning any costs related to eligibility.

Eligibility Requirements

For each student applying for DOL funding, the CET must determine whether the applicant
meets the eligibility criteria. This includes interviewing the applicant and obtaining
documentation which substantiates the applicant's economic and educational situation.

To be eligible for the MSFW program, an individual, according to 20 CFR §633, must have:

     •   Been a seasonal farm worker; and,
     •   Received at least 50 percent of total income or been employed at least 50 percent of
         their total work time in farmwork; and,
     •   Been identified as a member of a family which receives public assistance or whose
         annual family income does not exceed the higher of either the poverty level or 70
         percent of the Lower Living Standards Income Level; or
     •   Been dependents of an individual described above.

To qualify for the WtW program, an individual must:

     •   Be an individual defined as Hard-to-Employ per 20 CFR §645.212, or
     •   Be an individual with Long-Term Welfare Dependence characteristics as defined in
         20 CFR §645.213.

MSFW Program

We reviewed 281 randomly selected MSFW program participant files. Sixteen files did not
contain adequate information to verify MSFW program eligibility. More specifically, four did
not have documentation to show the applicant was employed in farmwork. Examples of these
questionable employers included: insurance services, a restaurant, and a brewery. The files
did not document why work for these employers was considered farmwork. In addition, twelve

                                              35
participant files did not have documentation to show the farm worker was employed only on a
seasonal basis. Some of these individuals, for example, worked on dairy farms, nurseries, and
an egg packaging plant which may not be seasonal work. Based on the results of our
statistical sample, we concluded that the eligibility of 6 percent of the participants in the
MSFW program may not be substantiated.

WtW Program

We examined 88 randomly sampled WtW program participant files. Of the 88 participant files
tested, 21 did not include adequate information to substantiate WtW program eligibility. All
21 participants belonged to the Long-Term Welfare Dependence category. To be eligible in
this WtW category, an individual must be a current and long-term Temporary Assistance to
Needy Families (TANF) recipient and have at least two barriers to employment.

Specifically, 9 of the 21 files lacked proof that the participants were current and long-term
TANF recipients; 4 files lacked proof that the participants had 2 barriers to employment; and
8 files lacked proof that the participants met either criteria. Using statistical projections, we
concluded that the eligibility of 22 percent of participants in the WtW program may not be
substantiated.

Conclusion

A significant portion of the CET’s participants, 6 percent in the MSFW program and 22
percent in the WtW program, did not have adequate documentation to substantiate their
eligibility. As a result, neither the CET nor ETA has assurances that all MSFW and WtW
participants were actually eligible for the programs.

Recommendation

We recommend the Assistant Secretary for Employment and Training require the CET to
strengthen its procedures for documenting MSFW and WtW participants’ eligibility.

The CET Response

The CET responded by stating:

         During the audit CET staff gathered additional information on the eligibility of
         the 16 FW participants the OIG auditors deemed unverifiable. Of the 16 FW
         participants identified by the OIG that required additional information for
         eligibility determination, 12 FW participants eligibility determination period
         and/or eligibility worksheets were corrected to verify eligibility. It appears
         that 2 participants may not qualify, and 2 are still pending additional
         information. . . . A simple note in the file would have cleared up many of these

                                               36
         eligibility questions — for example, that the employer was a farmer even
         though the pay check was issued by the landowner (an insurance company.)
         Or, that dairy farms often have extensive layoffs during the wet winter
         months.

         CET has made the same effort to provide additional documentation to verify
         the eligibility of the 21 WtW participants identified by the auditors. . . . The
         primary difficulty in documenting WtW eligibility is long term welfare
         dependency. CET staff continue to encounter difficulties in obtaining personal
         welfare information (welfare dependency period) for WtW participants in
         training. The local DSS agencies consider this type of information private and
         confidential, and not for public (or training agency) usage.

         Recognizing this problem early on, CET developed a referral form to document
         that the participant referred to CET by the local DSS agency was eligible to
         participate in CET's national WtW program. Every WtW participant file
         contains either a CET WtW referral form or a referral letter (on letterhead)
         from the DSS agency indicating that the WtW participant qualifies for the CET
         national training program. This should be sufficient documentation but CET
         division managers and staff have been trying to secure the level of
         documentation requested by the auditors. It has been difficult, however, to get
         a timely response from local social service agencies. This has delayed our
         ability to resolve some of the students identified by the OIG.

         Besides reinforcing the importance of correct documentation in training CET
         has increased the number of staff who review eligibility documentation to three
         full time staff positions.

OIG Evaluation of the CET Response

We disagree that every WtW participant file contains either a referral form or letter on local
social service agency letterhead indicating the participant qualifies for the WtW program.
The documentation in the files we cited did not establish some of the basic qualifications such
as how long the participant had been receiving TANF assistance.

The CET's response is not clear on how it intends to improve documentation. Therefore, this
recommendation is open and unresolved.




                                               37
7.   The CET Did Not Submit Indirect Cost Proposals Timely

Over the last 5 years, the CET has not submitted indirect cost proposals timely. This
occurred primarily because of major organizational changes in the CET Accounting
Department. The CET has not closed out any grants partly due to the lack of approved
indirect cost rates. Also, the CET may be able to claim additional funds or may have to return
funds, if rates finally approved are higher or lower than rates applied during the grants. As a
result of not having approved indirect cost rates, none of the Federal funding sources has any
assurance that the indirect costs they were paying were reasonable.

Indirect Cost Requirements

As a grantee for Federal funds, the CET claims indirect costs on cost reimbursable grants and
contracts. This includes costs that are incurred for more than one objective such as general
administrative cost, staff training, accounting, and printing. The CET generally recovers
indirect costs by a rate applied to grant costs.

In order for the CET to be able to collect indirect costs on Federal grants, OMB Circular
A-122 requires the CET to prepare an indirect cost proposal. The proposal shows the various
types of costs the CET distributes and how the CET allocates the costs to the benefitting CET
component. OMB Circular A-122 also requires the CET to submit its cost proposal to its
cognizant Federal agency, DOL, 6 months following the close of each fiscal year. DOL
reviews and approves the rate for use on all Federal grants.

Indirect Cost Proposals Not Submitted Timely

The CET did not meet these criteria for the last 5 years. For example, for CET’s Fiscal Year
1997, that ended June 30, 1997, the CET did not submit the indirect cost proposal until March
2000, more than 2 years late.

The CET’s fiscal function has undergone several organizational changes over the last few
years. The CET actually outsourced the fiscal function and only recently brought it back to
the CET. During this time, keeping up with day-to-day fiscal operations has been difficult for
the CET.

Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct the CET to
submit its indirect cost proposals timely and monitor the CET’s compliance with this
requirement.

The CET Response


                                              38
EXHIBITS
                                                                                                                            Exhibit A

                                           Center for Employment Training
                                       Migrant and Seasonal Farmworker Program
                                  Statement of Audited Costs (Financial Status Report)
                                                  Program Year 1998
                                           Grant Number C-5439-5-00-81-55




    Cost Categories           Costs                          Questioned Costs By Finding
                             Reported                                                                                Costs Per
                                                  1                  2               5                 5              Audit

                                            Administratio         Training      Training-           Training
                                            n Costs                Costs         Related             Costs
                                                                                Supportive
                                                                                 Services

1. Training Costs

  a. Classroom           $    9,241,682                      $      (228,519)                   $     (28,733)   $     8,984,430
Training

  b. On-the-Job                   2,856                                                                                    2,856
Training

  c. Training                           0                                                                                        0
Assistance

  Subtotal: Training          9,244,538                             (228,519)                         (28,733)         8,987,286

2. Supportive Services                                                                                                           0

  a. Training Related           158,888                                             (158,888)                                    0

  b. Services Only              393,750                                                                                  393,750

  Subtotal: Services            552,638                                             (158,888)                            393,750

3. Administration               979,717          (979,717)                                                                       0

Total Project Costs      $ 10,776,893       $    (979,717)    $     (228,519)   $   (158,888)   $     (28,733)   $     9,381,036




                                                             41
                                                                                            Exhibit B


                                     Center for Employment Training
                                Migrant and Seasonal Farmworker Program
                               Performance Data (Program Status Summary)
                                           Program Year 1998
                                     Grant Number C-5439-5-00-81-55




               SELECTED DATA USED IN CALCULATING PERFORMANCE STANDARDS


                               Performance Category                        Performance
                                                                               Data

Terminations

  Entered Employment                                                                 928

  Enhanced Only                                                                      130

  Services Only                                                                     2137

  Other Termination                                                                  163

Total Terminations                                                                  3358



Entered Employment Rate

  Minimum Standard Employment Rate                                                48.50%

  Actual Employment Rate                                                          76.00%



Hourly Wages

  Minimum Standard Hourly Wage                                                      $5.77

  Actual Wage at Termination                                                        $7.69




                                                  43
                                                                                                            Exhibit C

                                   Center for Employment Training
                                       Welfare-to-Work Program
                          Statement of Audited Costs (Financial Status Report)
                                          Program Year 1998
                                   Grant Number Y-6802-8-00-81-60




        Cost Categories                         Costs Reported           Questioned           Costs Per
                                                                           Costs               Audit


Section I:

Federal Expenditures (excluding Admin)           $       1,767,856   $                0   $     1,767,856

Federal Administrative Expenditures                       261,596                     0           261,596

Total                                           $        2,029,452   $                0   $     2,029,452

Section II:

Work Experience                                          1,749,566                    0         1,749,566

Supportive Services                                        18,290                     0            18,290

Total                                           $        1,767,856   $                0   $     1,767,856




                                                    44
                                                                                    Exhibit D

                       Center for Employment Training
                           Welfare-to-Work Program
              Statement of Audited Costs (Financial Status Report)
                              Program Year 1998
                       Grant Number Y-6802-8-00-81-60




       SELECTED DATA USED IN CALCULATING PERFORMANCE STANDARDS


                          Performance Category                       Performance
                                                                         Data

Participant Summary

 Enrolled                                                                     424

 Terminated                                                                   169

  Placed in Unsubsidized Employment                                           122



Entered Employment Rate

  Planned Minimum Employment Rate                                            75%

  Actual Employment Rate                                                     72%




                                       45
                                                                                                   Exhibit E

                                 Center for Employment Training
                                       Replication Project
                 Statement of Audited Costs (Grantee's Detailed Statement of Costs)
                                       Program Year 1998
                                 Grant Number J-3912-2-00-81-75




         Cost Categories               Costs       Questioned Costs by
                                      Reported          Finding 3                Costs Per Audit

                                                       Ineligible Costs
                                                          Charged

1. Personnel Costs

  a.   Salaries and Wages         $     304,923                              $           304,923

  b.   Fringe Benefits                   82,539                                           82,539

  Subtotal: Personnel                   387,462                                          387,462

2. Other Expenses

  a. Travel                              50,428                                           50,428

  b. Consumables                            138                                              138

  c. Equipment Leases                     4,141                                            4,141

  d. Communication                        1,352                                            1,352

  e. Printing                               966                                              966

  f. Professional Services              119,268                  (119,268)                     0

  g. Miscellaneous                        1,039                                            1,039

  h. Indirect                            27,108                                           27,108

  i. Depreciation                         7,024                                            7,024

  Subtotal: Other Expenses              211,464                  (119,268)                92,196

Total Project Costs               $     598,926    $             (119,268)   $           479,658




                                                  46
              APPENDIX

Center for Employment Training Response
